HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation, Blue Cross and Blue Shield of New Mexico, (A-07-96-01195)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation, Blue Cross and
Blue Shield of New Mexico," (A-07-96-01195)
February 4, 1997
Complete Text of Report is available in PDF format
(871 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Medicare Contractor's
Pension Segmentation, Blue Cross and Blue Shield of New Mexico (New Mexico).
We identified Medicare segment assets of $508,856 as of 1986. Additionally,
we updated Medicare segment assets from Plan Year 1986 to Plan Year 1988 and
identified segment assets of $616,574 as of January 1, 1988. New Mexico merged
with Blue Cross and Blue Shield of Colorado and Blue Cross and Blue Shield of
Nevada in 1989, and the corporate name was changed to Rocky Mountain Health
care Corporation. The three companies' pension plans were officially merged
on January 1, 1989. However, New Mexico's pension assets were not separately
accounted for after Plan Year 1987. Instead, the Medicare segment pension assets
of New Mexico were included in Rock Mountain's update of pension assets for
Plan Year 1988. We separately accounted for New Mexico's assets ($700,952) to
January 1, 1989. We recommended that New Mexico separately identify Medicare
segment assets to January 1, 1989.